March 19, 2003

MICHAEL S. FLORES
MANAGER, FORT WORTH DISTRICT

SUBJECT:     Management Advisory – Delayed Mail – Bridgecreek Station, Wichita
             Falls, Texas (Report Number TD-MA-03-002)

This management advisory reports our observations of delayed mail at Bridgecreek
Station, Wichita Falls, Texas (Project Number 01PA001DE001). We performed work for
this report in response to anonymous information obtained from a Postal Service
employee during the course of a related audit.

                     Objective, Scope, and Methodology
The purpose of this management advisory is to notify Postal Service officials of
improper mail handling and resulting delays we observed at Bridgecreek Station,
Wichita Falls, Texas. During our work, we noted delayed mail at Bridgecreek Station,
reviewed applicable Postal Service policies and procedures, interviewed Postal Service
managers at Postal Service Headquarters and in the field, and photographed
conditions. We did not audit, review, or comprehensively investigate the observations
we made. We are providing this advisory so management can take whatever corrective
action they consider necessary under the circumstances. Work associated with this
report was conducted from October 2002 through March 2003. We discussed our
observations and recommendations with appropriate management officials and included
their comments, where appropriate.

                              Prior Audit Coverage
Our report, Address Change Service (Report Number TD-AR-03-004, dated March 12,
2003), revealed that mishandled Address Change Service mail processed during the
period September 2000 to July 2002, resulted in unnecessary cost to the Postal Service
exceeding $20 million, and that the Postal Service could save $14 million over the next
2 years, by properly handling Address Change Service mail. We recommended
management develop necessary training materials, analyze address change service
performance, and provide feedback to local post offices.




                                  Restricted Information
Delayed Mail – Bridgecreek Station,                                                              TD-MA-03-002
 Wichita Falls, Texas



                                                  Results

Delayed Mail

On October 15, 2002, we observed approximately 20,000 pieces of mail delayed at
Bridgecreek Station, Wichita Falls, Texas. The mail was 5 to 6 weeks old, with some
pieces postmarked as early as September 4, 2002. The mail could not be delivered as
addressed and consisted of First-Class return to sender mail and Address Change
Service mail. When mail cannot be delivered as addressed, Postal Service procedures




                    Delayed mail photographed at the Bridgecreek Station, Wichita Falls, Texas
                                               October 15, 2002.

require that it be returned to sender if possible, or in the case of Address Change
Service mail, that mailers be notified. Postal Service Management Instruction PO-441,
Rehandling of Mail Best Practices, dated April 2002, requires a Postal Service clerk to
properly identify and expedite mail that cannot be delivered as addressed. However,
local officials at the Bridgecreek Station stated they had insufficient staff to process
such mail on a daily basis. Because mail that could not be delivered as addressed was
not processed on a daily basis, it accumulated to unacceptable levels. Our analysis of
conditions 2 months later, on December 16, 2002, revealed the situation had improved,
but was still unacceptable. On that date, more than 9,000 pieces of mail were still
backlogged.

Recommendations

We recommend the district manager, Fort Worth, Texas:

    1. Take necessary action to reduce the mail backlog at Bridgecreek Station, prevent
       recurrence, and report results of the inquiry to the vice president, Southwest Area




                                                       2
                                            Restricted Information
Delayed Mail – Bridgecreek Station,                                            TD-MA-03-002
 Wichita Falls, Texas


        Operations; vice president, Delivery and Retail; and the Office of Inspector
        General.

Management Comments

Management agreed with our recommendation, and stated they performed a follow-up
in the Bridgecreek Station on February 28, 2003. They found that corrective measures
are in place and the unit is current on Address Change Service mail. Management
stated that the unit manager performs a daily review to ensure that mail is not delayed
and that the postmaster has made this a matter for a weekly follow-up. Management’s
comments, in their entirety, are included in the appendix of this report.

Evaluation of Management Comments

Management’s comments are responsive to our recommendation and the actions taken
and planned should correct the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joe Oliva, director,
Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    Henry A. Pankey
    George L. Lopez
    Susan M. Duchek




                                                 3
                                      Restricted Information
Delayed Mail – Bridgecreek Station,                            TD-MA-03-002
 Wichita Falls, Texas


                     APPENDIX. MANAGEMENT’S COMMENTS




                                                 4
                                      Restricted Information
Delayed Mail – Bridgecreek Station,                            TD-MA-03-002
 Wichita Falls, Texas




                                                 5
                                      Restricted Information
